REHEARING REQUEST

Writ of certorari unopposed by solicitor general as government
represenitivefin this case) waves. the issue, the goverment fails to
argue, abandoment; United States v. Ross (no. 18-11679)(11th cir.
June 24,2020)--In United States v. Sparks

Realizing that deceit cannot be purged of taint, government
fails to argue , it waves the issue; Ross 2020 WL 344518, at *1.
In this case, the deceit was at trail whereas judge admitted 911
hearsay calls he himself stated some wre lies. By not instructing
the jury as to which were untruths,deceived them. By defendant
Jackson raising a pro'se objection to judge, and prosecutor
abandoning thier chance to rebut, waves the issue supreme court says

in Ross 2020 WL 344518, at *1.

 

RECEIVED
JUL 27 2021 |

 

J debe arden prnally A proszig hat che Sragoiog os Tote emake
eaarited on T1624 seppilias URchend Soshesn |

ยง 57 Yo>

 
